               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




          Assessment of Overall Plant
               Efficiency 2012

         Management Advisory Report




                                              April 27, 2012

Report Number NO-MA-12-001
                                                                              April 27, 2012

                                            Assessment of Overall Plant Efficiency 2012

                                                            Report Number NO-MA-12-001




IMPACT ON:
Mail processing operations nationwide.           workhours in response to declining mail
                                                 volume (because of poor economic
WHY THE OIG DID THE AUDIT:                       conditions) nor achieved all possible
Our objectives were to follow-up on the          efficiencies in mail processing
U.S. Postal Service’s progress in                operations. Therefore, the Postal
reducing workhours based on                      Service is using more workhours then
recommendations made in our prior                necessary to process mail volume.
report (Report Number NO-MA-11-004,
May 20, 2011) and to assess the                  WHAT THE OIG RECOMMENDED:
efficiency of the processing and                 We recommended the vice president,
distribution network for fiscal year (FY)        Network Operations, reduce more than
2011.                                            14 million workhours by FY 2014 with an
                                                 associated economic impact of almost
WHAT THE OIG FOUND:                              $665 million and periodically evaluate
The Postal Service made substantial              operating efficiency by assessing
progress by reducing workhours in the            performance against the median
network from the previous year. Plants           productivity level for each plant
that were the least productive in                grouping.
FY 2010 reduced more than 5.9 million
workhours (achieving 42.4 percent of             WHAT MANAGEMENT SAID:
the recommended workhour savings)                Management agreed with our
and improved productivity by                     recommendations to reduce workhours
6.95 percent.                                    and periodically evaluate efficiency by
                                                 assessing performance against the
Regarding efficiency for FY 2011,                median productivity level for each plant
productivity for all plants improved by          grouping.
more than 5.9 percent over the prior
fiscal year and overtime decreased by            AUDITORS’ COMMENTS:
almost 4.2 percent compared with                 The U.S. Postal Service Office of
FY 2010.                                         Inspector General considers
                                                 management’s comments responsive to
The Postal Service made these                    the recommendations and corrective
workhour reductions with only slight             actions should resolve the issues
declines in service from FYs 2010 to             identified in the report.
2011. However, we found the Postal
Service had not yet fully adjusted               Link to review the entire report
April 27, 2012

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS

                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Management Advisory Report – Assessment of Overall
                           Plant Efficiency 2012 (Report Number NO-MA-12-001)

This report presents a follow up on the U.S. Postal Service’s progress in
reducing workhours based on the workhour recommendation made in our prior report
dated May 20, 2011, as well as the results of our assessment of the overall efficiency of
the processing and distribution network for fiscal year 2011 (Project Number
12XG003NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at 703-248-2100.

Attachments

cc: Frank Neri
    Corporate Audit and Response Management
Assessment of Overall Plant Efficiency 2012                                                                            NO-MA-12-001

                                                 TABLE OF CONTENTS

Introduction .......................................................................................................................... 1

Conclusion ........................................................................................................................... 1

Efficiency of Operations ...................................................................................................... 2

   Workhour Reductions and Service ................................................................................. 2

   Economic Conditions ....................................................................................................... 3

   Plant Consolidations ........................................................................................................ 3

   Potential Sources of Workhour Reductions .................................................................... 3

   Reduction in Overtime ..................................................................................................... 3

   Reduction in Mail Handling.............................................................................................. 4

   Reduction in Stand-By Time ........................................................................................... 4

   Automated and Mechanized Equipment ......................................................................... 4

   Manual Operations .......................................................................................................... 5

   Allied Operations ............................................................................................................. 5

   Indirect/Related Operations ............................................................................................ 5

Recommendations .............................................................................................................. 6

Management’s Comments .................................................................................................. 6

Evaluation of Management’s Comments ............................................................................ 6

Appendix A: Additional Information..................................................................................... 7

   Background ...................................................................................................................... 7

   Objectives, Scope, and Methodology ............................................................................. 9

   Prior Audit Coverage ..................................................................................................... 10

   Workhour Reductions and Service ............................................................................... 11

   Economic Conditions ..................................................................................................... 12
Assessment of Overall Plant Efficiency 2012                                                                      NO-MA-12-001

   Plant Consolidations ...................................................................................................... 13

   Efficiency of Operations ................................................................................................ 13

   Potential Sources of Workhour Reductions .................................................................. 15

   Overtime Usage ............................................................................................................. 15

   Excessive Mail Handling ............................................................................................... 16

   Stand-By Time ............................................................................................................... 17

   Excess Manual Letter Mail ............................................................................................ 18

   Excess Manual Flat Mail ............................................................................................... 18

   Human Resources ......................................................................................................... 19

Appendix B: Sources of Workhour Reduction by LDC .................................................... 21

   Automated and Mechanized Equipment ....................................................................... 21

   Automated Letter Mail Processing – LDC 11 ............................................................... 21

   Mechanized and Automated Flat Mail Processing – LDC 12 ...................................... 22

   Throughput, Jam Rates, and Reject Rates .................................................................. 23

   Manual Operations ........................................................................................................ 23

   Manual Operations – LDC 14........................................................................................ 23

   Allied Operations – LDC 17 ........................................................................................... 24

   Indirect/Related Operations – LDC 18 .......................................................................... 25

Appendix C: Monetary Impact........................................................................................... 26

Appendix D: Management’s Comments ........................................................................... 27
Assessment of Overall Plant Efficiency 2012                                                                  NO-MA-12-001




Introduction

This report presents a follow-up on the U.S. Postal Service’s progress in
reducing workhours based on a recommendation made in a prior report 1 and our
assessment of the overall efficiency of the processing and distribution network for fiscal
year (FY) 2011 (Project Number 12XG003NO000). The report addresses operational
risk. See Appendix A for additional information about this audit.

In FY 2011, we reported on efficiency levels and mail volume at processing and
distribution centers (P&DCs) and processing and distribution facilities (P&DFs) and
recommended the Postal Service reduce more than 14 million workhours by FY 2013.
The goal of the previous effort was to report on the Postal Service’s efforts to ‘raise the
bar’ on productivity levels for those plants that were the least productive in the network
nationwide. We took a similar approach in this report and plan to conduct this type of
analysis annually.

The Postal Service faces significant financial challenges. It concluded FY 2011 with a
net loss of almost $5.1 billion, despite reducing operating expenses by $4.8 billion. In
FY 2011, the loss from operations was just over $4.9 billion. The net loss would have
been $10.6 billion had it not been for an extension of a provision allowing the Postal
Service to defer certain benefit payments until August 1, 2012. 2

Conclusion

The Postal Service made substantial progress by reducing workhours in the network
from the previous year. Plants that were the least productive in FY 2010 reduced more
than 5.9 million workhours (achieving 42.4 percent of the recommended workhour
savings) and improved productivity by 6.95 percent.

Regarding efficiency for FY 2011, productivity for all plants improved by more than 5.9
percent over the prior fiscal year and overtime decreased by almost 4.2 percent
compared to FY 2010. We found that first-handling piece 3 (FHP) productivity 4 increased
at a higher rate than non-farm business sector productivity as reported by the Bureau of
Labor Statistics in the first 3 quarters of calendar year 2011. For comparisons to the
non-farm business sector, see Appendix A.


1
  Management Advisory Report – Assessment of Overall Plant Efficiency 2011 (Report Number NO-MA-11-004,
dated May 20, 2011).
2
  Legislation was passed postponing a congressionally mandated payment of $5.5 billion to pre-fund retiree health
benefits.
3
  A FHP is a letter, flat, or parcel that receives its initial distribution at a Postal Service facility. FHP records mail
volume in the operation where it receives its first distribution handling.
4
  We calculated FHP productivity by dividing FHP volume by Function 1 workhours.

                                                              1
Assessment of Overall Plant Efficiency 2012                                                             NO-MA-12-001




The Postal Service made these workhour reductions with only slight declines in service
from FYs 2010 to 2011. See Appendix A for our detailed analysis of this topic.

However, we found the Postal Service had not yet fully adjusted workhours in response
to declining mail volume because of poor economic conditions or achieved all possible
efficiencies in mail processing operations.

The Postal Service could improve operational efficiency by reducing more than
14.2 million workhours by the end of FY 2014. This would allow the Postal Service to
achieve at least median productivity levels in the network and avoid costs of almost
$665 million based on workhour savings for 1 year. See Appendix C for a detailed
explanation of this cost avoidance.

Efficiency of Operations

Further opportunities exist for the Postal Service to reduce mail processing workhours
by improving efficiency. For example, if the 138 plants with below-median productivity
levels in FY 2011 achieved just the median productivity level for each respective plant
group, 5 the Postal Service could realize workhour savings of more than 14.2 million.
See Appendix A for our detailed analysis of this topic.

Workhour Reductions and Service

The Postal Service reduced workhours and improved operational efficiency in FY 2011.
For instance, from FYs 2010 to 2011, management used more than 9.1 million fewer
workhours in mail processing. 6 Plants that had below-median productivity levels in
FY 2010 accounted for more than 5.9 million reduced workhours and achieved
42.4 percent of the recommended workhour savings, and improved productivity by
6.95 percent. Overall, total mail processing productivity also improved by 5.26 percent
over the prior fiscal year.

The Postal Service made workhour reductions in FY 2011, but service declined slightly
in the External First-Class Measurement System (EXFC) categories of overnight and
2-, and 3-day service. In addition, we found that FHP productivity increased at a higher
rate than the non-farm business sector 7 productivity, as reported by the Bureau of Labor
Statistics in the first 3 quarters of calendar year 2011. See Appendix A for our detailed
analysis of this topic.


5
  We divided the facilities that process mail into seven groups ranked according to FHP mail volume in FY 2010 (see
Appendix A for more information).
6
  These hours are recorded in a category referred to as Function 1. Total Function 1 hours include network
distribution centers (NDCs), international service centers (ISCs), logistics and distribution centers (L&DCs), priority
hubs, P&DCs, and P&DFs.
7
  The non-farm business sector is a subset of the domestic economy and excludes the economic activities of the
following: general government, private households, non-profit organizations serving individuals, and farms. This
sector is comparable to the Postal Service environment.
                                                           2
Assessment of Overall Plant Efficiency 2012                                  NO-MA-12-001



Economic Conditions

The Postal Service faces the challenge of making additional workhour reductions while
continuing to deal with declining mail volumes and a deteriorating financial condition.
The Postal Service ended FY 2011 with a net loss of $5.1 billion that would have been
about $10.6 billion had it not been for an extension of a provision allowing the Postal
Service to defer certain benefit payments until August 1, 2012. The Postal Service
experienced an overall volume decrease of almost 3 billion mailpieces from FYs 2010 to
2011 — a decrease of 1.7 percent. 8 See Appendix A for our detailed analysis of this
topic.

Plant Consolidations

The Postal Service reduced the size of the mail processing network from FYs 2010 to
2011. In FY 2010, three P&DFs were closed and consolidated into other facilities. In
addition, 27 partial consolidations were completed during this period. We found this
consolidation strategy contributed to an overall productivity increase in the mail
processing network for FY 2011. See Appendix A for our detailed analysis of this topic.

Potential Sources of Workhour Reductions

We identified seven major areas where the Postal Service could realize workhour
savings:

     Overtime.
     Mail Handling.
     Stand-By Time.
     Automated and Mechanized Equipment.
     Manual Operations.
     Allied Operations.
     Indirect/Related Operations.

Reduction in Overtime

Management decreased overtime in all plants by almost 4.2 percent compared with
FY 2010; however, further opportunities exist to reduce overtime. In FY 2011, the Postal
Service used a higher percentage of overtime workhours in plants with below-median
productivity levels than those with above-median productivity levels. If plants below the
median achieve the average overtime percentage of the above-median plants, the
Postal Service would realize savings of more than 1.3 million workhours. See Appendix
A for our detailed analysis of this topic.




8
    Based on the annual report for FY 2011.
                                              3
Assessment of Overall Plant Efficiency 2012                                                               NO-MA-12-001



Reduction in Mail Handling

Excessive mail handling used more workhours than necessary to process mail volume
and lowered productivity. In general, plants with lower FHP productivity tended to sort
the mail more than plants with higher FHP productivity. For example:

   On average, large Group 1 plants that operated above median productivity sorted
    each mailpiece 1.83 times from the moment it was received until it was dispatched
    from the facility. 9 Group 1 plants with below median productivity on average sorted
    each mailpiece 1.86 times. If all Group 1 plants sorted mail at the 1.83 ratio, the
    Postal Service would save more than 1.2 million workhours.

   Similarly, the Postal Service could save more than 3.2 million workhours if plants
    with below-median productivity levels sorted mail at the average handling ratio of
    plants with above-median productivity levels. See Appendix A for our detailed
    analysis of this topic.

Reduction in Stand-By Time

Plants operating at below-median FHP productivity levels generally used a higher
amount of mail processing stand-by time. 10 This indicates that management might not
be properly scheduling and staffing employees to match workload.

As an example, Group 1 plants with above-median FHP productivity levels used
.05 percent of workhours in stand-by time operations. By standardizing the percentage
of workhours used in stand-by time operations across the network, compared with total
mail processing workhours used, Group 1 plants could reduce workhours by more than
20,000. Further, by standardizing the percentage of workhours used in stand-by time
operations in all plant groups, the Postal Service could save more than 91,000
workhours. See Appendix A for our detailed analysis of this topic.

Furthermore, we identified potential sources of workhour reductions by LDC. These
sources are discussed in Appendix B.

Automated and Mechanized Equipment

Plants that operated below the median FHP productivity generally had lower productivity
in automated and mechanized operations. 11 If all plants with below-median FHP
productivity levels increased the number of mailpieces handled per hour by operation to

9
  The handling ratio was determined by comparing FHP volume to the number of times a mailpiece was handled from
receipt to dispatch.
10
   Operation Number 340 is defined as operational stand-by time. It is intended for short-term use in response to
situations that are not likely to continue. Operation Number 603 is defined as institutional stand-by time. It is used for
employees placed on stand-by under provisions in National Agreements. Mail processing stand-by time is the total of
hours in these two operation numbers.
11
   These operations include automated letter operations and the distribution of flat mail on automated and
mechanized equipment.
                                                            4
Assessment of Overall Plant Efficiency 2012                                                       NO-MA-12-001



the average of the plants with above-median FHP productivity, the Postal Service
could save more than 2.6 million workhours in automated operations and more than
601,000 workhours in mechanized operations. In addition, plants with below-median
productivity levels generally had higher jams per 10,000 pieces and higher reject rates
on delivery bar code sorter (DBCS) machines and automated flat sorter machines
(AFSMs) 100, indicating that procedures for jogging and culling the mail might need
improvement. See Appendix B for our detailed analysis of this topic.

Manual Operations

Opportunities to improve efficiency in manual operations were twofold. First, plants with
productivity levels lower than the median also had lower productivity in manual
operations. The Postal Service could save more than 2.8 million workhours if plants with
below-median productivity levels increased the mailpieces handled per hour to the
average of the plants with above-median FHP productivity levels. See Appendix B for
our detailed analysis of this topic. Second, the Postal Service did not take full advantage
of automated and mechanized equipment and, consequently, worked an excessive
amount of mail manually. The Postal Service’s manual sort target is no more than
2.5 percent of the total letter volume and 6 percent of the total flat volume. The Postal
Service could save more than 1.2 million workhours by using automation to sort letter
and flat mail instead of manual sortation. See Appendix A for our detailed analysis of
this topic.

Allied Operations

Plants with below-median productivity levels generally used a larger percentage of
workhours in allied operations 12 (referred to as LDC 17) than plants with above-median
productivity levels. Allied operations represented the largest percentage (37 percent) of
workhour usage in mail processing operations in FY 2011. By standardizing the
percentage of workhours used in allied operations across the network, as compared
with total mail processing workhours used, the Postal Service could save more than
3.9 million workhours. This represents the greatest opportunity to improve efficiency and
achieve workhour reductions. See Appendix B for our detailed analysis of this topic.

Indirect/Related Operations

Plants with below-median productivity levels generally used a larger percentage of
workhours in indirect/related operations 13 (referred to as LDC 18) than plants with
above-median productivity levels. Indirect/related operations represented more than
7 percent of workhour usage in mail processing operations in FY 2011. By standardizing
the percentage of work hours used in indirect/related operations across the network, as


12
   These operations are recorded in LDC 17 and include mail preparation, presort operations, traying, sleeving,
opening, pouching, and platform operations.
13                                                                                                            ®
   These operations are recorded in LDC 18 and include stand-by time, rewrap of damaged mail, Express Mail
                                                                                         ™
processing, empty equipment processing, office work and record keeping, Registered Mail processing, and union
steward time.
                                                        5
Assessment of Overall Plant Efficiency 2012                                  NO-MA-12-001



compared with total mail processing workhours used, the Postal Service could save
more than 1.5 million workhours. See Appendix B for our detailed analysis of this topic.

In addition, as of January 2012, we found 17,522 employees were eligible to retire in
plants with below-median productivity levels. This represents a potential annual
workhour reduction of more than 30 million workhours, far more than needed to achieve
the 14.2 million workhour savings identified. See Appendix A for additional information.

The Postal Service addressed operational efficiency by reducing workhours to better
align with budgeted workhours. For example, it reduced FY 2011 mail processing
workhours by about 4 percent from FY 2010 levels. However, management had not
evaluated operational efficiency by assessing performance based on median
productivity for each plant grouping.

Recommendations

We recommend the vice president, Network Operations:

1. Reduce 14,268,171 workhours by fiscal year 2014 with an associated economic
   impact of $664,997,872.

2. Periodically evaluate operating efficiency by assessing performance against the
   median productivity level for each plant grouping.

Management’s Comments

Management agreed with our two recommendations. Management agreed with our first
recommendation to reduce 14,268,171 workhours with an associated economic impact
of $664,997,872 by FY 2014 by improving operational efficiency in the major areas
highlighted in the report (overtime, mail handlings, stand-by time, automated and
mechanized equipment, manual operations, allied operations and indirected/related
operations). Management also agreed with our second recommendation to periodically
evaluate operating efficiency. Management will evaluate efficiency at the operational
level by using the Breakthrough Productivitiy Initiative model. Through the use of this
model, management will make efficiency ranking comparisons and identify proven and
best practices. See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. The OIG considers recommendation 1 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective action is completed. This recommendation should
not be closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendation can be closed.

                                              6
Assessment of Overall Plant Efficiency 2012                                                                NO-MA-12-001




                                   Appendix A: Additional Information

Background

Mail processing is an integrated group of activities 14 required to sort and distribute mail
for dispatch and eventual delivery. Post offices, stations, and branches send outgoing
mail to P&DCs and P&DFs for processing and dispatch for a designated service area.
P&DCs report directly to area offices on mail processing matters. They also provide
instructions on the preparation of collection mail, dispatch schedules, and sort plan
requirements to associate offices and mailers.

The Postal Service compiles workhour, labor use, and other financial reports for
management use by functional category or LDC. 15 For example, LDC 11 records
workhours in automated letter operations, LDC 12 records workhours in distribution of
flat mail on automated and mechanized equipment, and LDC 14 records manual
sortation of letters and flats. The Postal Service uses LDC 17 to record hours by
employees involved in allied operations or mail processing operations other than
distribution, and it uses LDC 18 to record indirect/related workhours.

The largest percentage of workhour usage in mail processing operations in FY 2011
was 36.7 percent in LDC 17, and the largest percentage of FHP volume in FY 2011 was
85.2 percent in LDC 11.

For our prior report, we divided the facilities that process mail into seven groups ranked
by mail volume outlined in the Breakthrough Productivity Initiative (BPI). 16 Chart 1
shows the percentage of mail processing facilities in each group.




14
   Mail processing activities include culling, edging, stacking, facing, canceling, sorting, tying, pouching, and bundling.
15
   Mail processing operations are in the Function 1 category.
16
   The Postal Service established the BPI to drive costs out while creating continuous improvement capability. The
BPI uses comparative monitoring and performance ranking in operating units across the country. Higher performing
units are sometimes used as models to identify best practices. Standard procedures are based on best practices and
training is developed to share performance expectations. Targets are set to drive performance toward the highest
levels.

                                                             7
Assessment of Overall Plant Efficiency 2012                                   NO-MA-12-001



                                Chart 1. Plant Groups Based on
                                   FY 2006 BPI (Workload)




                         Source: OIG




For the assessment of overall efficiency of the processing and distribution network for
FY 2011, we developed seven new plant groups based on FHP mail volume in
FY 2010. Chart 2 shows the percentage of mail processing facilities in these groups.




                                              8
Assessment of Overall Plant Efficiency 2012                                                          NO-MA-12-001




                                    Chart 2. Plant Groups Based on
                                         FY 2010 FHP Volume




                         Source: OIG




Objectives, Scope, and Methodology

Our objectives were to follow up on the Postal Service’s progress in reducing workhours
based on recommendations made in our prior report 17 and to assess the efficiency of
the processing and distribution plant network for FY 2011. To accomplish our
objectives, we identified trends in mail volume, workhours, overtime, and productivity for
each of the seven plant groups for FYs 2010 and 2011.

We conducted this review from October 2011 through April 2012 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on March 13, 2012, and included their comments where appropriate.

To conduct this review, we relied on computer-processed data maintained by Postal
Service operational systems, which included the Management Operating Data System
and the Enterprise Data Warehouse System. We did not test the validity of controls over
these systems. However, we verified the accuracy of the data by confirming our
analysis and results with Postal Service managers and other data sources. We
determined that the data were sufficiently reliable for the purposes of this report.


17
     Assessment of Overall Plant Efficiency 2011 (Report Number NO-MA-11-004, dated May 20, 2011).
                                                         9
     Assessment of Overall Plant Efficiency 2012                                       NO-MA-12-001



     Prior Audit Coverage

                                           Final
                       Report             Report       Monetary
  Report Title        Number                Date        Impact                Report Results
Assessment of       NO-MA-09-002         5/8/2009    $969,495,708    Although the Postal Service has
Overall Plant                                                        made significant improvements
Efficiency                                                           to operational efficiency,
                                                                     opportunities exist to do even
                                                                     more.
Assessment of       NO-MA-10-001         6/11/2010   $743,961,610    Management had not evaluated
Overall Plant                                                        operational efficiency by
Efficiency 2010                                                      assessing performance against
                                                                     productivity targets and other
                                                                     plants and adjusting staff and
                                                                     equipment resources in
                                                                     response to workload changes.
Follow-Up on        NO-MA-11-001         2/1/2011    None            The Postal Service made
the Assessment                                                       substantial progress by
of Overall Plant                                                     reducing workhours in the
Efficiency 2010                                                      network from the previous year.
Overtime Usage      HR-AR-11-003         3/31/2011   None           Although the Postal Service had
                                                                    a number of issues contributing
                                                                    to its increased use of
                                                                    overtime, we found that
                                                                    management did not effectively
                                                                    plan for overtime usage.
Assessment of       NO-MA-11-004         5/20/2011   $647,586,823    The Postal Service had not yet
Overall Plant                                                        fully adjusted workhours in
Efficiency 2011                                                      response to declining mail
                                                                     volume because of poor
                                                                     economic conditions, nor did
                                                                     they achieve all possible
                                                                     efficiencies in mail processing
                                                                     operations.
A Strategy for a    RARC-WP-11-          7/6/2011    None           For at least the last decade,
Future Mail         006                                             there has been a mismatch
Processing &                                                        between the existing powerful
Transportation                                                      network capacity and
Network                                                             decreasing user needs. Without
                                                                    a strategic transformation, by
                                                                    2020, the network capacity will
                                                                    greatly exceed demand.


     As shown in the preceding table, we have conducted three overall efficiency reviews,
     one follow-up review of mail processing operations, and one review of national overtime
     usage. These reviews identified opportunities to improve efficiency and reduce more

                                                     10
Assessment of Overall Plant Efficiency 2012                                                         NO-MA-12-001



than 53 million workhours that would produce more than $2.3 billion in savings over
10 years. In response to our recommendations, management reduced workhours to
better align with budgeted workhours. The audit of overtime usage showed that total
overtime increased, because management did not effectively plan for overtime usage.
Management agreed with the recommendations made in these reports.

Workhour Reductions and Service

From FYs 2010 to 2011, the Postal Service reduced workhours and improved
operational efficiency. For instance, from FYs 2010 to 2011, management used more
than 9.1 million fewer workhours in mail processing. 18 Overall mail processing
productivity improved from an average 849 mailpieces per hour in FY 2010 to an
average 894 mailpieces per hour in FY 2011, representing a productivity increase of
more than 5.26 percent.

We found that FHP productivity increased at a higher rate than the non-farm business
sector productivity as reported by the Bureau of Labor Statistics (BLS) in the first
3 quarters of calendar year 2011 as shown in Table 1.

           Table 1. Percentage of Productivity Changes by Calendar Quarter
                             Percentage of        Percentage of Change in
                             Change in FHP       Non-Farm Business Sector
          Calendar            Productivity              Productivity
           Quarter             2010 – 2011              2010 - 2011
               1
       (January-March)            3.4%                     1.3%
               2
         (April-June)             5.4%                     0.7%
               3
      (July-September)            4.4%                     1.1%
        Source: BLS

The BLS compiles productivity and related cost measures designed for use in economic
analysis and public and private policy planning. Data on output per hour and unit labor
costs are available for the U.S. business sector, the non-farm business sector, and the
manufacturing sector. These are the productivity statistics most often cited in the news.

The Postal Service experienced a slight decline in service scores in EXFC service
categories of overnight, 2-day, and 3-day service as shown in Table 2.




18
  These hours are recorded in a category referred to as Function 1, which includes hours worked in NDCs, ISCs,
L&DCs, priority hubs, and P&DFs. There was a total of more than 9.12 million workhour savings in Function 1 hours,
9.03 million of which were attributable to all plants and 5.95 million attributable to plants with below-median FHP
productivity.
                                                        11
Assessment of Overall Plant Efficiency 2012                                                    NO-MA-12-001



                      Table 2. FYs 2010 and 2011 EXFC Service Scores
                       Fiscal Overnight        2-Day       3-Day
                        Year Percentage Percentage Percentage
                        2010      96.37%      93.75%      91.57%
                        2011      96.33%      93.53%      91.20%
                         Source: Postal Service


The Postal Service improved the Customer Experience Measurement (CEM) scores in
the residential and business categories in all quarters from FYs 2010 to 2011 as shown
in Tables 3 and 4.

                        Table 3. FYs 2010 and 2011 CEM Scores
                                      Residential
                          Quarter 1    Quarter 2    Quarter 3 Quarter 4
            Fiscal Year
                         Percentage Percentage Percentage Percentage
               2010        86.16%       85.67%       87.13%    86.82%
               2011        86.55%       86.80%       87.24%    88.06%
            Difference      0.39%        1.13%        0.11%     1.24%
                 Source: Postal Service


                        Table 4. FYs 2010 and 2011 CEM Scores
                                       Business
                          Quarter 1    Quarter 2    Quarter 3 Quarter 4
            Fiscal Year
                         Percentage Percentage Percentage Percentage
               2010        81.30%       81.57%       82.45%    81.95%
               2011        82.32%       82.68%       83.15%    83.55%
            Difference      1.02%        1.11%        0.70%     1.60%
                 Source: Postal Service


In addition, an Oxford Strategic Consulting study 19 named the Postal Service the best
postal service in the world's top 20 largest economies in terms of access to services,
resource efficiency, and public trust.

Economic Conditions

FY 2011 was a difficult year for the U.S. economy and the Postal Service. As the
economy continued to remain weak, mail volume and revenue continued to decline.
Total FY 2011 mail volume declined by almost 3 billion pieces, or 1.7 percent, from
2010. While total mail volume declined, the package business grew by more than
5 percent to more than 2.1 billion pieces. Packages are also growing in relation to the
product mix from 12.7 percent in FY 2006 to 16.1 percent in FY 2011.


19
  Delivering The Future: How The G20’s Postal Services Meet The Challenges of The 21st Century released on
December 20, 2011.



                                                      12
Assessment of Overall Plant Efficiency 2012                                               NO-MA-12-001



The Postal Service concluded FY 2011 with a net loss of $5.1 billion, despite
reducing total costs by $4.8 billion. The net loss would have been about $10.6 billion
had it not been for an extension of a provision, allowing the Postal Service to defer
certain benefit payments until August 1, 2012.

Title 39, U.S.C. Part 1, Chapter 1 § 101, states that the Postal Service “. . . shall provide
prompt, reliable, and efficient services to patrons in all areas . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states that “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal Accountability and Enhancement Act, P.L. 109-435, Title II, dated
December 20, 2006, highlights “. . .the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services . . .”

Plant Consolidations

To determine whether plant consolidations affected mail processing efficiency in
FY 2011, we examined consolidations that occurred in FY 2010. The Postal Service
made progress in reducing the size of the mail processing network in FY 2010. For
example, we found that the Postal Service completed 30 consolidations. It closed three
P&DFs and consolidated them into other facilities. 20 In addition, it completed 27 partial
consolidations during this period. We found that this consolidation strategy contributed
to an overall FHP productivity increase in the mail processing network for FY 2011.

The facilities gaining mail volume from the 30 consolidations were all in plant groups
1-4, the larger plants in the network. We found that FHP productivity for just the
30 gaining plants also increased in FY 2011 (see Table 5).

                                  Table 5. FHP Productivity
                 30 Plants Gaining Volume From Consolidations for FY 2010
                Plant      Number of                               Percentage
                Group        Plants        FY 2010      FY 2011     Change
                  1            12            990          1,054       6.5%
                  2             9            991          1,015       2.4%
                  3             6           1,152         1,243       7.9%
                  4             3           1,213         1,310       8.0%
           Source: OIG



Efficiency of Operations

Further opportunities exist for the Postal Service to reduce mail processing workhours
by improving efficiency. We compared FHP productivity among the seven plant



20
     The three P&DFs were the Marysville, Charlottesville P&DF, and Wilkes-Barre P&DFs.
                                                         13
Assessment of Overall Plant Efficiency 2012                                                        NO-MA-12-001



groupings 21 and determined the median FHP productivity for each group. We
determined that if the 138 plants with below-median FHP productivity in FY 2011
achieved just the median FHP productivity level for each respective plant group, the
Postal Service could realize more than 14.2 million workhour savings and avoid costs of
almost $665 million 22 in a single year. For example, if Group 1 plants with below-median
FHP productivity increased their productivity to the median productivity level (1,049
mailpieces per hour); the Postal Service could save more than 6.5 million workhours –
45.6 percent of the more than 14 million workhours (see Table 6).

                             Table 6. Baseline Workhour Reductions
                 Plant         Median FHP         Workhour      Percentage of
                 Group         Productivity         Savings     Total Savings
                   1               1,049           6,510,789        45.6%
                   2               1,048           2,785,448         19.5
                   3               1,127           1,988,477         13.9
                   4               1,304           1,253,074          8.8
                   5               1,342           1,363,247          9.6
                   6               1,446            263,793           1.8
                   7               1,405            103,343          0.72
                 Total        Not Applicable      14,268,171      100.00%
                 Source: OIG


The recommended savings of more than 14 million workhours represent a
14.8 percent decrease in the 96,675,117 workhours used by plants that operated below
the median FHP productivity level in FY 2011 and an 8.3 percent decrease in the
171,236,043 workhours used by all plants (see Table 7).

                     Table 7. FY 2011 Opportunity Hour Percentage
                      For Plants With Below-Median Productivity
          Plant          FY 2011 Function 1       Workhour
                                                                Percentage
         Group             Workhour Usage           Savings
            1                  42,187,768          6,510,789      15.4%
            2                  23,631,286          2,785,448       11.8
            3                  13,846,938          1,988,477       14.4
            4                   7,754,977          1,253,074       16.2
            5                   5,952,305          1,363,247       22.9
            6                   2,380,589           263,793        11.1
            7                    921,254            103,343        11.2
          Total                96,675,117         14,268,171      14.8%
     Total All Plants         171,236,043      Not Applicable      8.3%



21
   For this analysis, we used plant groupings based on FY 2010 FHP mail volume (see Appendix A). We based
savings on FHP mail volume and based productivity on median performers.
22
   We based workhour reductions on FY 2011 usage and used the Level 06 fully loaded FY 2011 clerk rate of
$45.83 per hour and the Level 05 fully loaded FY 2011 mail handler rate of $48.61 per hour (see Appendix B).
                                                        14
Assessment of Overall Plant Efficiency 2012                                   NO-MA-12-001



Potential Sources of Workhour Reductions

We identified five broad categories of potential savings. These categories include
overtime, handling ratio, stand-by time, manual sortation of letters, and manual sortation
of flats. Although not mutually exclusive with the workhour opportunities identified by
LDC, the savings are provided since the Postal Service has established programs to
improve these operational areas (see Table 8).

                  Table 8. Broad Sources of Workhour Reductions
                                      Potential
                                                  For Detailed Explanation,
            Source of Workhour        Workhour
                                                  Click on the Section Title
                Reduction             Savings
       Reduce Overtime                 1,343,276      “Overtime Usage”
       Reduce Handling Ratio           3,231,268 “Excessive Mail Handling”
       Reduce Stand-By Time               91,898       “Stand-By Time”
       Reduce Manual Sortation of                   “Excess Manual Letter
       Letters                           844,773             Mail”
       Reduce Manual Sortation of
                                                  “Excess Manual Flat Mail”
       Flats                             410,998
                Source: OIG


Overtime Usage

Management decreased overtime in all plants by almost 4.2 percent compared to
FY 2010, and opportunities exist to further reduce overtime. The Postal Service could
stabilize overtime usage and save more than 1.3 million workhours. When management
does not properly monitor and control overtime, the Postal Service incurs higher labor
costs, because these workhours are paid at a higher premium rate.

For example, Group 1 plants operating above median FHP productivity levels had an
average overtime percentage rate of 5.70 percent. If all Group 1 plants operated at this
overtime ratio, the Postal Service could save 577,069 workhours. Overall, the Postal
Service could save more than 1.3 million workhours if all plants with below-median FHP
productivity reduced their overtime percentages to the average of the plants with
above-median FHP productivity (see Table 9).




                                              15
Assessment of Overall Plant Efficiency 2012                                                         NO-MA-12-001



                                  Table 9. Overtime Savings
                                        Above-Median
                                        Productivity –
                                            Average           Group
                            Plant          Overtime         Workhour
                            Group         Percentage         Savings
                              1              5.70%           577,069
                              2              7.25%           342,161
                              3              7.34%           192,542
                              4              7.67%            81,871
                              5              7.06%            85,644
                              6              8.75%            24,555
                              7              7.41%            39,434
                            Total       Not Applicable      1,343,276
                     Source: OIG


Excessive Mail Handling

The Postal Service could reduce the number of times mail is handled and save more
than 3.2 million workhours. Excessive mail handling uses more workhours than
necessary to process mail volume, which means productivity is lower. 23 In general,
plants with lower FHP productivity levels tended to sort the mail more often than plants
with high FHP productivity levels. For example, on average, Group 1 plants operating
above the median FHP productivity sorted a mailpiece 1.83 times from the moment it
was received until it was dispatched from the facility. Group 1 plants with below-median
productivity, on average, sorted each mailpiece 1.86 times. If all Group 1 plants sorted
mail at the 1.83 ratio, the Postal Service could save more than 1.2 million workhours.
Further, the Postal Service could save more than 3.2 million workhours if plants with
below-median FHP productivity sorted mail at the average handling ratio of the plants
with above-median FHP productivity levels (see Table 10).




23
   We calculated the handling ratio by comparing FHP volume to total piece handling (TPH) volume. TPH measures
the number of handlings used to distribute each mailpiece from receipt to dispatch. As an example, if the handling
ratio is 1.5, the average mailpiece was handled 1.5 times from the moment it was received until it was dispatched
from the facility. Management uses this information to measure performance and efficiency. This ratio can vary
depending on mail flow and operating plans.
                                                        16
Assessment of Overall Plant Efficiency 2012                                 NO-MA-12-001




                            Table 10. Handling Ratio Savings
                                      Above-Median
                                      Productivity –          Group
                      Plant         Average Handling       Workhour
                      Group               Ratio              Savings
                        1                  1.83             1,212,677
                        2                  1.96              470,902
                        3                  1.91              539,292
                        4                  1.82              610,551
                        5                  1.81              274,615
                        6                  1.83               69,815
                        7                  1.74               53,417
                      Total           Not Applicable        3,231,268
                   Source: OIG


Stand-By Time

Plants operating at below-median FHP productivity levels generally used a higher
amount of stand-by time. This indicates that management may not be properly
scheduling and staffing employees to match the workload. As an example, Group 1
plants with above-median FHP productivity levels used .05 percent of workhours in
stand-by time operations. By standardizing the percentage of workhours used in stand-
by time operations across the network, compared with total mail processing workhours
used, Group 1 plants could reduce workhours by more than 20,000. Further, by
standardizing the percentage of workhours used in stand-by time operations in all plant
groups, the Postal Service could save more than 91,000 workhours (see Table 11).

                                 Table 11. Stand-By Time Savings
                                              Above-Median
                                              Productivity –    Group
                         Plant                Stand-By Time    Workhour
                         Group                 Percentage       Savings
                          1                       0.05%         20,679
                          2                       0.04%         21,022
                          3                       0.24%          3,944
                          4                       0.24%          5,323
                          5                       0.02%         27,905
                          6                       0.11%         13,022
                          7                       0.04%            3
                         Total                Not Applicable    91,898
                   Source: OIG




                                                    17
Assessment of Overall Plant Efficiency 2012                                  NO-MA-12-001



Excess Manual Letter Mail

Plants operating at below-median FHP productivity levels generally worked an
excessive amount of letter mail manually. The Postal Service’s manual sort target is no
more than 2.5 percent of the total letter volume. However, in FY 2011, plants with less
than median FHP productivity sorted an excess of more than 476 million letters
manually. The largest volume of excess manual letters was at Group 1 plants. The
Postal Service could save 844,773 workhours by using automation rather than manual
methods to sort letter mail (see Table 12).

                              Table 12. Excess Manual Letters
                                     Excess Letters
                                         Worked
                                      More Than 2.5         Group
                        Plant        Percent of Total     Workhour
                        Group         Letter Volume        Savings
                          1            197,719,824         350,567
                          2             54,491,260          96,616
                          3             38,443,466          68,162
                          4             86,662,618         153,657
                          5             27,766,593          49,232
                          6             29,658,500          52,586
                          7             41,709,834          73,954
                        Total          476,452,094         844,773
                   Source: OIG



Excess Manual Flat Mail

Plants operating at below-median FHP productivity levels also generally worked an
excessive amount of flat mail manually. The Postal Service’s manual sort target is no
more than 6 percent of the total flat volume. However, in FY 2011, plants with less than
median FHP productivity sorted an excess of 246 million flats manually. The largest
volume of excess manual flats was at Group 1 plants. The Postal Service could save
410,998 workhours by using automation to sort flat mail instead of manual sortation
(see Table 13).




                                              18
Assessment of Overall Plant Efficiency 2012                                 NO-MA-12-001



                              Table 13. Excess Manual Flats
                                       Excess Flats
                                           Worked
                                         More than           Group
                        Plant       6 Percent of Total     Workhour
                        Group          Flat Volume          Savings
                          1             115,392,339         192,642
                          2              27,372,871          45,698
                          3              40,026,275          66,822
                          4              33,050,689          55,176
                          5              17,035,866          28,441
                          6               8,917,659          14,888
                          7               4,392,099           7,332
                        Total           246,187,797         410,998
                   Source: OIG



Human Resources

As of October 2011, 17,522 employees in plants with below-median productivity levels
were eligible to retire. This represents a potential annual workhour reduction of more
than 30 million workhours, far more than needed to achieve the savings identified (see
Tables 14 and Table 15).

                        Table 14. Potential Complement Reduction
                               for Plants Below the Median
                                   Total                  Percentage
                       Plant    Function 1 Retirement      of Total
                       Group    Employees      Eligible   Employees
                         1           24,346        8,140     33%
                         2           13,563        4,273      32
                         3            7,956        2,497      31
                         4            4,523        1,321      29
                         5            3,100          860      28
                         6            1,143          335      29
                         7              400            96     24
                       Total         55,031       17,522     32%
                        Source: OIG




                                              19
Assessment of Overall Plant Efficiency 2012                                 NO-MA-12-001



                             Table 15. Potential Workhour Reduction
                                  for Plants Below the Median 24
                                       Total     Retirement Percentage
                         Plant     Function 1      Eligible      of Total
                         Group     Workhours Workhours Workhours
                           1        42,313,348 14,147,320          33%
                           2        23,572,494     7,426,474        32
                           3        13,827,528     4,339,786        31
                           4          7,860,974    2,295,898        29
                           5          5,387,800    1,494,680        28
                           6          1,986,534      582,230        29
                           7            695,200      166,848        24
                         Total      95,643,878 30,453,236          32%
                      Source: OIG




24
     We based workhour savings on 1,738 workhours per year.
                                                        20
Assessment of Overall Plant Efficiency 2012                                  NO-MA-12-001



                  Appendix B: Sources of Workhour Reduction by LDC

We identified potential sources for improving efficiency. These sources are listed by
each major mail processing operation by LDC. These potential workhour savings
represent 11,675,402 workhours or almost 82 percent of the recommended workhour
savings. See Table 16.

                Table 16. Potential Sources of Workhour Reductions
                                       Potential
                                                   For Detailed Explanation,
           Source of Workhour          Workhour
                                                     Click on Section Name
                Reduction               Savings
       Improve Efficiency in LDC 11                  “Automated Letter Mail
       Operations                       2,645,810           Processing”
                                                         “Mechanized and
       Improve Efficiency in LDC 12
                                                       Automated Flat Mail
       Operations
                                          601,416           Processing”
       Improve Efficiency in LDC 14
                                                      “Manual Operations”
       Operations                       2,881,548
       Improve Efficiency in LDC 17
                                                        “Allied Operations”
       Operations                       3,988,349
       Improve Efficiency in LDC 18                      “Indirect/Related
       Operations                       1,558,279           Operations”
                   Total               11,675,402         Not Applicable
                                                    “Appendix A, Efficiency of
        FHP Productivity Savings
                                       14,268,171           Operations”
                Percentage               81.8%            Not Applicable
                Source: OIG


Automated and Mechanized Equipment

Plants that operated below the median FHP productivity level generally had lower
productivity in automated and mechanized operations. If all plants with below-median
FHP productivity increased the pieces handled per hour to the average of the plants
with above-median FHP productivity, the Postal Service could save more than
2.6 million workhours in automated operations and more than 601,000 workhours in
mechanized operations. In addition, plants with below-median productivity generally had
higher jams per 10,000 mailpieces and higher reject rates on the DBCS machines and
on the AFSM 100s, indicating that procedures for jogging and culling the mail may need
improvement.

Automated Letter Mail Processing – LDC 11

Plants that operate at below-median FHP productivity levels generally had lower
productivity in LDC 11. For example, Group 1 plants operating at above-median FHP
productivity had an average LDC 11 productivity of 3,997 mailpieces per hour. If all
Group 1 plants operated at this productivity level, the Postal Service could save more
                                              21
Assessment of Overall Plant Efficiency 2012                                  NO-MA-12-001



than 1.1 million workhours. Further, the Postal Service could save more than 2.6 million
workhours if all plants with below-median FHP productivity levels increased the pieces
handled per hour in LDC 11 operations to the average of the plants with above-median
FHP productivity (see Table 17).

                       Table 17. Automated Letter Mail Processing
                                    LDC 11, FY 2011
                                   Above-Median              Group
                    Plant          Productivity –         Workhour
                    Group         Average LDC 11            Savings
                      1                3,997               1,166,793
                      2                3,573                338,456
                      3                3,910                450,872
                      4                4,439                356,765
                      5                5,000                224,369
                      6                4,889                 81,157
                      7                5,522                 27,398
                    Total          Not Applicable          2,645,810
                   Source: OIG


Mechanized and Automated Flat Mail Processing – LDC 12

Plants with below-median FHP productivity levels also had generally lower LDC 12
productivity. For example, Group 2 plants operating at above-median FHP productivity
had an average LDC 12 productivity of 2,160 mailpieces per hour. If all Group 2 plants
operated at this productivity level, the Postal Service could save 137,748 workhours.
Further, the Postal Service could save 601,416 workhours if all plants with
below-median FHP productivity levels increased the mailpieces handled per hour in
LDC 12 operations to the average of the plants with above-median FHP productivity
(see Table 18).

               Table 18. Mechanized and Automated Flat Mail Processing
                                   LDC 12, FY 2011
                                   Above-Median          Group
                      Plant         Productivity –     Workhour
                      Group       Average LDC 12        Savings
                        1               1,955           120,347
                        2               2,160           137,748
                        3               2,253           136,132
                        4               1,996           127,169
                        5               1,888            49,557
                        6               1,439            20,485
                        7               1,715             9,978
                      Total        Not Applicable       601,416
                   Source: OIG


                                              22
Assessment of Overall Plant Efficiency 2012                                  NO-MA-12-001



Throughput, Jam Rates, and Reject Rates

The average throughput for the DBCS was lower in Group 1 plants with below-median
FHP productivity than in plants with above-median FHP productivity. In addition, the
DBCS and the AFSM 100 jam and reject rates were higher in plants with below-median
FHP productivity levels. These trends indicate that management at these plants might
not be properly instructing employees on procedures for jogging and culling the mail. In
addition, equipment at these plants may not be properly or sufficiently maintained (see
Tables 19 and 20).

                       Table 19. Group 1 DBCS Machines, FY 2011
                                       Average    Jam      Reject
                      Group 1 Plants Throughput   Rate      Rate
                      Above-Median      35,956     2.02    0.82%
                      Below-Median      35,820     2.31    0.92%
                        Difference       136      -0.28   -0.10%
                     Source: OIG


                           Table 20. Group 1 AFSM 100, FY 2011
                                         Average    Jam     Reject
                       Group 1 Plants Throughput Rate         Rate
                       Above-Median       14,846   21.17     3.00%
                       Below-Median       14,886   25.77      3.30
                         Difference         -40     -4.60   -0.30%
                     Source: OIG


Manual Operations

Opportunities to improve efficiency in manual operations were twofold:

   Plants with FHP productivity below the median also had lower productivity in manual
    operations.

   Management did not take full advantage of automated and mechanized equipment
    and, consequently, worked an excessive amount of mail manually.

Manual Operations – LDC 14

Plants with FHP productivity lower than the median also had lower productivity in
LDC 14. For example, Group 1 plants operating at above-median FHP productivity had
an average LDC 14 productivity of 556 mailpieces per hour. If all Group 1 plants
operated at this productivity level, the Postal Service could save more than 1.3 million
workhours. Further, the Postal Service could save more than 2.8 million workhours if all
plants with below-median FHP productivity levels increased the mailpieces handled per
hour in LDC 14 operations to the average of the plants with above-median FHP
productivity levels (see Table 21).

                                              23
Assessment of Overall Plant Efficiency 2012                                  NO-MA-12-001




                                  Table 21. Manual Operations
                                        LDC 14, FY 2011
                                      Above-Median             Group
                     Plant            Productivity –         Workhour
                     Group           Average LDC 14           Savings
                       1                    556              1,375,954
                       2                    560               743,934
                       3                    560               278,859
                       4                    624               195,867
                       5                    775               152,770
                       6                    901                79,996
                       7                    932                54,168
                     Total            Not Applicable         2,881,548
                   Source: OIG


Allied Operations – LDC 17

Plants with below-median FHP productivity levels used a greater percentage of
workhours in allied operations (LDC 17) than plants with above-median FHP
productivity levels. As an example, Group 1 plants with above-median FHP productivity
levels used 35 percent of workhours in LDC 17. By standardizing the percentage of
workhours used in allied operations across the network, compared with total mail
processing workhours used, Group 1 plants could reduce workhours by almost
1.8 million. Further, by standardizing the percentage of workhours used in LDC 17 in all
plant groups, the Postal Service could save almost 4 million workhours (see Table 22).

                                   Table 22. Allied Operations
                                        LDC 17, FY 2011
                                         Above-Median
                                        Average LDC 17
                                      Percentage to Total          Group
                     Plant              Mail Processing          Workhour
                     Group                 Workhours              Savings
                       1                       35%               1,797,526
                       2                       35%               1,159,211
                       3                       34%                548,313
                       4                       36%                182,209
                       5                       39%                174,349
                       6                       35%                 94,252
                       7                       38%                 32,490
                     Total               Not Applicable          3,988,349
                   Source: OIG




                                               24
Assessment of Overall Plant Efficiency 2012                                NO-MA-12-001



Indirect/Related Operations – LDC 18

Plants with below-median FHP productivity levels used a greater percentage of
workhours in Indirect/Related operations (LDC 18) than plants with above-median FHP
productivity levels. As an example, Group 1 plants with above-median FHP productivity
levels used 7 percent of workhours in LDC 18. By standardizing the percentage of
workhours used in allied operations across the network, compared with total mail
processing workhours used, Group 1 plants could reduce workhours by more than
637,000. Further, by standardizing the percentage of workhours used in LDC 18 in all
plant groups, the Postal Service could save more than 1.5 million workhours (see
Table 23).

                           Table 23. Indirect/Related Operations
                                      LDC 18, FY 2011
                                       Above-Median
                                      Average LDC 18
                                    Percentage to Total          Group
                     Plant            Mail Processing         Workhour
                     Group               Workhours              Savings
                       1                     7%                 637,292
                       2                     7%                 382,921
                       3                     7%                 236,706
                       4                     6%                 105,966
                       5                     6%                 128,334
                       6                     6%                  47,161
                       7                     6%                  19,898
                     Total             Not Applicable          1,558,279
                   Source: OIG




                                              25
Assessment of Overall Plant Efficiency 2012                                                          NO-MA-12-001




                                     Appendix C: Monetary Impact

To calculate total questioned costs, we determined median FHP productivity for each
group and found that 138 plants throughout the country operated at below-median FHP
productivity. If these plants achieved just the median productivity level for each
respective plant group, the Postal Service could realize workhour savings of 14,268,171
and avoid costs of $664,997,872 in a single year.

                                               Monetary Impact

                Finding                        Impact Category                           Amount
              Efficiency of
                                              Questioned Costs 25                      $664,997,872
              Operations




25
  Unnecessary, unreasonable, unsupported, or an alleged violation of law, regulation, contract, etc. These costs may
be recoverable or unrecoverable and are usually a result of historical events.


                                                        26
Assessment of Overall Plant Efficiency 2012                    NO-MA-12-001



                           Appendix D: Management’s Comments




                                              27
Assessment of Overall Plant Efficiency 2012        NO-MA-12-001




                                              28
Assessment of Overall Plant Efficiency 2012        NO-MA-12-001




                                              29
Assessment of Overall Plant Efficiency 2012        NO-MA-12-001




                                              30
